Federal Public Defender
Northern District of Texas
JASON D. HAWKINS
Federal Public Defender
CHARLES BLEIL
ERIN BRENNAN
STEPHEN GREEN
MICHAEL KAWI
MARTI MORGAN
DOUG MORRIS
JOHN NICHOLSON
JOEL PAGE
JUAN RODRIGUEZ
COURTNEY STAMPER
MARIA GABIELA VEGA
LAUREN WOODS
LARA WYNN
Assistant Federal Public Defenders

525 GRIFFIN STREET
SUI
629
DALLAS, TX 75202

819 TAYLOR STREET
ROOM 9A10
FORT WORTH TX 76102
817/978-2753

PHONE (214)767-2746
FAX (214)767-2886

1205 TEXAS AVENUE
ROOM 506
LUBBOCK, TX 79401
806/472-7236
500 S. TAYLOR
SUITE 103
AMARILLO, TX 79101
806/324-2370

October 21, 2019
Clerk
Supreme Court of the United States
1 First St., N.E.
Washington, D.C. 20543
Re:

Dominic Ladale Walton v. United States of America

Dear Clerk:
Please find enclosed an original and ten copies each of Respondent's Brief in
Opposition, IFP motion and Proof of Service for filing in the above-referenced matter.
Respect

Key
Assi

yours,

ederal Public Defender

Enclosed: as noted
cc:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

RECEIVED
OCT 2 3 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

